No. 19-1336
In the

Supreme Court of the United States
THE NATIONAL RETIREMENT FUND, et al.,
Petitioners,
v.
METZ CULINARY MANAGEMENT, INC.,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

BRIEF OF AMICUS CURIAE NEW YORK
STATE TEAMSTERS CONFERENCE
PENSION AND RETIREMENT FUND
IN SUPPORT OF PETITIONERS
Edward J. Meehan
Mark C. Nielsen
Samuel I. Levin
Groom Law Group, Chartered
1701 Pennsylvania Avenue, N.W.
Washington, DC 20006
(202) 857-0620
emeehan@groom.com

Vincent M. DeBella
Counsel of Record
Paravati, K arl, Green &
DeBella, LLP
Landmarc Building
520 Seneca Street, Suite 105
Utica, New York 13502
(315) 735-6481
vdebella@pkgdlaw.com

Counsel for Amicus Curiae
Dated: July 15, 2020
296711

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

The Second Circuit Largely Ignored the
Relevant Statutory Provision and Made Up a
Rule Based on Hypothetical Policy Concerns
Already Addressed by the Statute  . . . . . . . . . . . 3
A. Section 4211’s “As Of” Requirement
A llows Withdrawal Liability
Assumptions to be Selected After the
Last Day of the Previous Plan Year  . . . . . . 3
B. The Second Circuit’s Reliance on
Section 4214 Was Misplaced . . . . . . . . . . . . . 6
C. The Second Circuit’s Policy Concerns
Are Already Addressed by the Existing
Statutory Scheme . . . . . . . . . . . . . . . . . . . . . 10
D. The Second Circuit’s Reliance on Section
101 Was Misplaced . . . . . . . . . . . . . . . . . . . . 15

ii
Table of Contents
Page
II. T h i s C o u r t S h o u l d R e v i e w T h i s
Issue Now, Rather Than Wait For a
Circuit Split to Develop . . . . . . . . . . . . . . . . . . . . 16
A. The Importance of Withdrawal Liability
and Multiemployer Pension Plans  . . . . . . . 16
B. Funding Questions for a Significant
Portion of the Nation’s Retirement
Plans Are Worthy of This Court’s
Immediate Attention . . . . . . . . . . . . . . . . . . 18
C. The Question Cannot Wait  . . . . . . . . . . . . . 19
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Advocate Health Care Network v. Stapleton,
137 S. Ct. 1652 (2017)  . . . . . . . . . . . . . . . . . . . . . . . . . 18
Bay Area Laundry & Dry Cleaning Pension Tr.
Fund v. Ferbar Corp. of California,
522 U.S. 192 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Chicago Truck Drivers, Helpers & Warehouse
Workers Union (Indep.) Pension Fund v.
CPC Logistics, Inc.,
698 F.3d 346 (7th Cir. 2012) . . . . . . . . . . . . . . . . . 14, 21
Concrete Pipe & Prod. of California, Inc.
v. Constr. Laborers Pension Tr. for S.
California,
508 U.S. 602 (1993) . . . . . . . . . . . . . . . . . . . . . . . .  14, 15
Loughrin v. United States,
573 U.S. 351 (2014)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Milwaukee Brewery Workers’ Pension Plan v.
Joseph Schlitz Brewing Co.,
513 U.S. 414 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . 4, 11
Pac. Operators Offshore, LLP v. Valladolid,
565 U.S. 207 (2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

iv
Cited Authorities
Page
Republic Indus., Inc. v. Cent. Pennsylvania
Teamsters Pension Fund,
693 F.2d 290 (3d Cir. 1982) . . . . . . . . . . . . . . . . . . . . .  17
Rhoades, McKee & Boer v. United States,
43 F.3d 1071 (6th Cir. 1995) . . . . . . . . . . . . . . . . . . . . 13
Roofers Local No. 30 Combined Pension Fund v.
D.A. Nolt, Inc.,
719 F. Supp. 2d 530 (E.D. Pa 2010), aff’d,
444 F. App’x 571 (3d Cir. 2011) . . . . . . . . . . . . . . . . . . 12
Transpro, Inc. v. Leggett & Platt, Inc.,
297 F. App’x 434 (6th Cir. 2008)  . . . . . . . . . . . . . . . . . 5
United Mine Workers of Am. 1974 Pension Plan
v. Energy W. Mining Co.,
No. 1:18-CV-01905 (CJN), 2020 WL 2615536
(D.D.C. May 22, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . 14
United States v. Gonzales,
520 U.S. 1 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Vinson & Elkins v. Comm’r,
7 F.3d 1235 (5th Cir. 1993) . . . . . . . . . . . . . . . . . . . . . 13
Wachtell, Lipton, Rosen & Katz v. Comm’r,
26 F.3d 291 (2d Cir. 1994) . . . . . . . . . . . . . . . . . . . . . . 13
Williams v. Taylor,
529 U.S. 362 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

v
Cited Authorities
Page
Statutes and Other Authorities
29 U.S.C. § 1021(l) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
29 U.S.C. § 1082(c)(9) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
29 U.S.C. § 1084(c)(7)(A)  . . . . . . . . . . . . . . . . . . . . . . . . . . 4
29 U.S.C. § 1389  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 10
29 U.S.C. § 1391  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
29 U.S.C. § 1391(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 10
29 U.S.C. § 1393  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
29 U.S.C. § 1393(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . 13, 18
29 U.S.C. § 1394  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
29 U.S.C. § 1394(a) . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 9, 10
29 U.S.C. § 1394(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
29 U.S.C. § 1399(b)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
29 U.S.C. § 1401(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 15, 19
H.R. Rep. No. 96-869 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

vi
Cited Authorities
Page
Multiemployer Plans: Their Current Circumstances
in Historical Context, available at https://www.
dol.gov/sites/dolgov/files/EBSA/researchers/
analysis/retirement/multiemployer-plans-theircurrent-circumstances-in-historical-context.pdf
(Sept. 29, 2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Pension Benefit Guaranty Corporation, Introduction
to Multiemployer Plans, available at https://www.
pbgc.gov/prac/multiemployer/introductionto-multiemployer-plans (Apr. 22, 2020)  . . . . . . . . . . 16
Pension Benefit Guaranty Program, PBGC
Projections: Multiemployer Program Insolvent
in FY 2025, available at https://www.pbgc.gov/
news/press/releases/pr18-02 (May 31, 2018) . . . . . . 19

1
INTEREST OF AMICUS CURIAE1
Amicus New York State Teamsters Conference
Pension and Retirement Fund (the “New York Fund”)
is a multiemployer plan based in Syracuse, New York.
With approximately 35,000 participants and beneficiaries,
200 participating employers, $1.5 billion in assets and
$4.8 billion in liabilities, the New York Fund is one of
the largest multiemployer plans in the Second Circuit.
The New York Fund is also the respondent in a pending
withdrawal liability arbitration in which counsel for the
Respondent here is attempting to invalidate, based on the
decision below, a change in actuarial assumptions made in
the aftermath of the 2007–2009 financial crisis.
Like many other multiemployer plans, several factors
have contributed to the New York Fund’s underfunding,
including: (i) a dwindling number of participating employers;
(ii) the 2007–2009 financial crisis; and (iii) an inability
to collect an adequate amount of withdrawal liability
from certain employers which have left the Plan (due to
bankruptcies, statutory limitations on how much withdrawal
liability can be collected, and opportunistic decisions by
employers about when to withdraw or through transactions
to evade or avoid withdrawal liability). As a result, the New
York Fund received approval from the Department of the
Treasury in 2017 to cut benefits to participants under the
Multiemployer Pension Reform Act of 2014 in order to
prevent the Plan from becoming insolvent.
1. In accordance with Supreme Court Rule 37.6, amicus
curiae certifies that no counsel for a party authored this brief in
whole or in part, and that amicus curiae paid for the preparation
and submission of this brief, without contributions from any
counsel for a party or a party. Counsel for petitioners and for
respondent were provided proper notice and have indicated their
consent to the filing of this brief.

2
The New York Fund files this brief to further highlight
the Second Circuit’s mistakes in construing the statute
and explain some of the likely impacts on multiemployer
pension plans over the next few years if the decision below
is not reversed.
SUMMARY OF ARGUMENT
Section 4211 of the Employee Retirement Income
Security Act (“ERISA”) provides that withdrawal liability
is to be calculated “as of” the last day of the prior plan
year. For decades, it has been uncontroversial that this
calculation, and the assumptions on which it is based, do
not have to be determined by the last day of the plan year.
This is because necessary information is generally not
available until sometime the following year. This principle
is so widely accepted that even counsel for Respondent
was forced to acknowledge at oral argument that because
“sometimes the information with respect to the state of the
world as of that date doesn’t become available until later,”
the calculation is “looking back” in order to “put yourself
in the position you were in at that time.” When the Second
Circuit issued its decision, however, it disregarded this
concession and ruled that assumptions must be selected
by the last day of the prior plan year.
The Second Circuit based its decision largely on
another provision of ERISA, Section 4214, and a variety of
hypothetical policy concerns about potential manipulation
and bias on behalf of pension plans and/or their actuaries.
But Section 4214 does not apply to the selection of actuarial
assumptions, and even if it did, the Second Circuit’s rule
is inconsistent with the plain text of Section 4214. And
the hypothetical policy concerns identified by the Second

3
Circuit bear no relationship to the facts of this case, would
not be meaningfully addressed by the Second Circuit’s
rule, and are already covered by existing provisions of
ERISA.
The Second Circuit’s error will interfere with
the ability of actuaries to make accurate and timely
withdrawal liability calculations. While actuaries will be
forced to make withdrawal liability calculations based
on information that is up to two years old, employers
will have the benefit of taking into account more recent
developments in financial markets and the economy and
can make strategic choices to withdraw from plans before
actuaries – under the Second Circuit’s rule – are allowed
to catch up. This comes at the worst possible time for
multiemployer plans, many of which are underfunded,
and with the federal insurance program that covers them
projected to run out of money in the next few years. This
Court should therefore resolve this issue now.
ARGUMENT
I.

The Second Circuit Largely Ignored the Relevant
Statutory Provision and Made Up a Rule Based on
Hypothetical Policy Concerns Already Addressed
by the Statute
A.

Section 4211’s “As Of” Requirement Allows
Withdrawal Liability Assumptions to be
Selected After the Last Day of the Previous
Plan Year

Section 4211 of ERISA requires that withdrawal
liability be calculated “as of” the last day of the previous

4
plan year. See 29 U.S.C. § 1391. This requirement is “one
of administrative convenience” to allow the plan to use
“figures that it must prepare in any event for [an annual]
report required under ERISA.” Milwaukee Brewery
Workers’ Pension Plan v. Joseph Schlitz Brewing Co.,
513 U.S. 414, 418 (1995). 2 Like the annual report of most
organizations, a multiemployer pension plan’s annual
valuation requires work to be done after the end of the
year in order to accurately reflect the state of the plan
“as of” the last day of the previous year. Until the Second
Circuit’s decision below, this had never been controversial
in the 40 years since ERISA was amended to impose
withdrawal liability. Indeed, counsel for Respondent Metz
Culinary Management, Inc. (“Metz”) conceded this point
during oral argument before the Second Circuit:
JUDGE LIVINGSTON: . . . But the statute
so far as I can tell is . . . silent as to when the
assumptions and methods must be set for the
preceding year.
MR. ROTH: Yeah. I think the legal question is
what does it mean to do the calculation as of the
measurement date, right? . . . [O]ur position is
. . . if you’re looking at the last day of the prior
plan year you want to look at . . . the state of
the world as it stood at that time. . . .
JUDGE CHIN: But sometimes the information
with respect to the state of the world as of that
date doesn’t become available until later.
2. Since the time of this Court’s decision in Milwaukee
Brewery Workers’ Pension Plan, the annual report requirement
has moved from 29 U.S.C. § 1082(c)(9) to 29 U.S.C. § 1084(c)(7)(A).

5
MR. ROTH: I Agree with that, Your Honor.
And -JUDGE CHIN: So it makes sense that you
would look at it later.
MR. ROTH: I Agree with that, Your Honor .
. . . You’re looking back. You’re trying to put
yourself in the position you were in at that
time. . . .
App. 20a–21a.
The district court similarly recognized that Section
4211’s requirement that withdrawal liability be calculated
“as of ” the last day of the plan year means that
assumptions “must incorporate data up through
December 31, 2013,” and that “the information necessary
to make thoughtful withdrawal liability assumptions
may not be entirely available before the end of the plan
year, and an actuary needs time to collect, review, and
synthesize that information after it is all available.” App.
59a (emphasis added). The district court further explained
that “ERISA does not provide that withdrawal liability
is to be calculated based on assumptions and methods ‘in
effect’ on the Measurement Date,” and that “[i]n effect’
and ‘as of’ are not the same.” Id. 52a. The district court’s
construction of the phrase “as of” is consistent with how
the term is generally used in the context of valuations.
See, e.g., Transpro, Inc. v. Leggett & Platt, Inc., 297 F.
App’x 434, 441–42 (6th Cir. 2008) (affirming district court
decision crediting expert testimony that “in the accounting
industry . . . ‘as of’ is a term of art” which “establishes the
point in time for which the [valuation] is calculated but

6
does not limit the availability date for the information used
to calculate that value,” and rejecting argument that the
term “as of” in a valuation contract “relates only to when
the [valuation] calculation is performed”).
The Second Circuit correctly recognized that this
provision was “[c]ritical to the present dispute.” App.
4a (“Critical to the present dispute, Section 1391 of the
MPPAA directs plans to calculate the withdrawal charge,
not as of the date of withdrawal or sometime later, but as
of the last day of the plan year preceding the year during
which the employer withdrew.”). But then, in a footnote,
the Second Circuit summarily rejected the district court’s
holding that “as of” does not mean “in effect,” because
“[f]or the reasons stated in this opinion, however, we
believe the district court’s reasoning to be unpersuasive.”
Id. 12a n.3 (emphasis added). What reasons? Certainly
none that had anything to do with the interpretation of
Section 4211, which the Second Circuit never mentioned
again after identifying it as “[c]ritical to the present
dispute.” App. 4a. Instead, the Second Circuit focused
on other provisions of ERISA – without determining
whether those provisions actually applied to the issue at
hand – and invented its own policy solution to problems
that do not exist.
B. The Second Circuit’s Reliance on Section 4214
Was Misplaced
The closest the Second Circuit came to actually
analyzing the text of the statute was with respect to
Section 4214 of ERISA. The Second Circuit concluded that
any “retroactive” change “relating to withdrawal liability”
– including the “selection of interest rate assumptions”

7
– was “inconsistent with Congress’s legislative intent.”
App. 10a–11a. There is, however, no basis to conclude that
changes to actuarial assumptions after the last day of the
prior plan year are retroactive. Rather, they are designed
to reflect the state of the world “as of” the last day of the
prior plan year and the reality that such work cannot be
completed until a subsequent date does not make their
selection retroactive. Moreover, even accepting the Second
Circuit’s premise, as discussed below, there are several
significant flaws with its approach, including:
• Section 4214 only applies to “plan rules and
amendments,” which does not encompass an
actuary’s selection of interest rate assumptions.
• Even w ith respect to “plan rules and
amendments,” Section 4214 does not set forth
a general anti-retroactivity rule. Rather, it
explicitly limits its prohibition on retroactivity
to plan rules and amendments dealing with
two very specific issues that are not relevant
to this case.
• Although Section 4214 only prohibits changes
made after an employer withdraws, the Second
Circuit’s invented concept of retroactivity would
prohibit changes made even before an employer
withdraws.
Section 4 214 only applies to “plan r ules and
amendments.” See 29 U.S.C. § 1394. Decisions about
actuarial assumptions are not plan rules and amendments,
see Pet. 12–14, and are plainly instead governed by
Section 4213 – the section of ERISA appropriately titled

8
“Actuarial assumptions.” See 29 U.S.C. § 1393. Although
the Second Circuit identified this as a potential flaw in its
analysis, it nevertheless relied on Section 4214 without
ever opining whether it actually applied to the selection
of actuarial assumptions. See App. 11a (“Although Section
4214 does not define ‘plan rules and amendments’ and
Section 4213 – unlike Section 4214 – does not specifically
address retroactivity, the retroactive selection of interest
rate assumptions for purposes of withdrawal liability, as
endorsed by the district court, is, therefore, inconsistent
with Congress’s legislative intent.”).
It would, of course, be impermissible to use comments
in a bill’s legislative history to override the text of the
statute passed by both houses of Congress and signed by
the President. See United States v. Gonzales, 520 U.S. 1,
6 (1997) (“Given the straightforward statutory command,
there is no reason to resort to legislative history.”).
But here, there is not even a conflict between the bill’s
legislative history and its plain text. The very portion
of the legislative history quoted by the Second Circuit
is crystal clear that the prohibition only applies to “the
retroactive application of a plan rule or amendment,” and
makes no mention of actuarial assumptions. See App. 10a
(quoting H.R. Rep. No. 96-869, pt. 2 at 30). Moreover,
the legislative history quoted by the Second Circuit also
makes clear that the prohibition only applies to “certain
retroactive changes in a plan’s rules.” Id. (emphasis
added). Those “certain retroactive changes in a plan’s
rules” are set forth in the statute.
Specifically, Section 4214(a) provides that plan rules
and amendments under two specific sections of ERISA
cannot apply retroactively. See 29 U.S.C. § 1394(a) (“No

9
plan rule or amendment adopted . . . under section 1389 or
1391(c) of this title may be applied without the employer’s
consent with respect to liability for a withdrawal . . .
which occurred before the date on which the rule or
amendment was adopted.”). But neither of those sections
are about actuarial assumptions and neither were at
issue in this case. See 29 U.S.C. § 1389 (setting forth a
“[d]e minimis rule” that reduces withdrawal liability
amounts below certain thresholds); 29 U.S.C. § 1391(c)
(setting forth certain permissible “methods” for
determining withdrawal liability that may be established
by plan amendment). If Congress intended to set forth a
generally applicable anti-retroactivity rule, it obviously
would not have limited the retroactivity prohibition to
only two specific sections.
Nor, in claiming to rely on Section 4214, did the Second
Circuit follow the statute’s explanation of what counted
as retroactive. The statute is clear that a plan rule or
amendment is retroactive only if it is “applied . . . to . . . a
withdrawal . . . which occurred before the date on which
the rule or amendment was adopted.” 29 U.S.C. § 1394(a).
In other words, so long as the change is made prior to the
date an employer withdraws, it is not retroactive within
the meaning of Section 4214. But the Second Circuit’s
invented concept of retroactivity would prohibit changes
made even before an employer withdraws. Under the
Second Circuit’s rule, as soon as the calendar turns to
January 1, any change made during the year would be
retroactive, even if it applies to a future withdrawal that
takes place later in the year.
Finally, Section 4214(b) provides that “[t]he plan
sponsor shall give notice to all employers . . . of any plan

10
rules or amendments adopted pursuant to this section.”
See 29 U.S.C. § 1394(b). Although the Second Circuit
began its discussion of Section 4214 by mentioning this
“notice requirement,” there is no basis to conclude that
the notice requirement in Section 4214(b) prohibits the
retroactive application of “any plan rule or amendment
with respect to withdrawal liability.” See App. 10a. Rather,
Section 4214’s prohibition on retroactive changes is clearly
laid out in subsection (a), not subsection (b).
Reading subsection (b) to prohibit any retroactive
change would conflict with, and render superfluous,
subsection (a)’s prohibition on retroactive changes only
with respect to two specific sections of ERISA. See 29
U.S.C. § 1394(a) (“No plan rule or amendment adopted
. . . under section 1389 or 1391(c) of this title may be applied
without the employer’s consent with respect to liability for
a withdrawal . . . which occurred before the date on which
the rule or amendment was adopted.”). Such a result would
“run[] afoul of the ‘cardinal principle’ of interpretation
that courts ‘must give effect, if possible, to every clause
and word of a statute.’” Loughrin v. United States, 573
U.S. 351, 358 (2014) (quoting Williams v. Taylor, 529 U.S.
362, 404 (2000)).
C.

The Second Circuit’s Policy Concerns Are
Already Addressed by the Existing Statutory
Scheme

The Second Circuit’s analysis seems to have been
motivated, in significant part, not by the text of the
statute, but by hypothetical policy concerns. Even if those
hypothetical policy concerns were justified, it is not the
job of the federal courts to engage in “judicial lawmaking”

11
instead of applying the statute Congress actually wrote.
See Pet. 9–10; Pac. Operators Offshore, LLP v. Valladolid,
565 U.S. 207, 220 (2012) (“policy concerns cannot justify an
interpretation . . . that is inconsistent with the text of the
[statute]”). Moreover, as discussed below, the hypothetical
policy concerns articulated by the Second Circuit are
already addressed by the existing statutory scheme.
The first set of policy concerns articulated by the
Second Circuit is:
In the context of multiemployer pension plans,
interest rate assumptions cannot be altered
daily and must have a degree of stability. Nor,
in that context, do interest rate assumptions
remain open forever and subject to retroactive
changes in later years. Indeed, the Plan itself
used the 7.25% [interest] rate for several
years [as reflected in] its annual reports to the
government. . . .
App. 9a. No multiemployer plan has ever “altered”
“interest rate assumptions” on a “daily” basis, or anything
even close to that. Nor could they do so. As this Court
explained in Milwaukee Brewery Workers’ Pension Plan,
the reason the statute provides for withdrawal liability
to be calculated “as of” the last day of the plan year is to
“permit[] a plan to base the highly complex calculations
upon figures that it must prepare in any event for [an
annual] report required under ERISA,” and “avoid[]
the need to generate new figures tied to the date of
actual withdrawal.” 513 U.S. at 418. Changing actuarial
assumptions multiple times within a year – something
that there is no evidence has ever occurred, and did not

12
occur in this case – would almost certainly be a violation
of Section 4211, which requires that all withdrawals in a
given year be calculated “as of” the same date. The Second
Circuit therefore did not need to invent a rule requiring
the assumptions to be made prior to the last day of the
previous plan year to prevent this hypothetical abuse.
Nor can the Second Circuit’s rule be justified by its
concern that “interest rate assumptions [should not] remain
open forever and subject to retroactive changes in later
years.” App. 9a. The district court correctly recognized
that other decisions already establish “that withdrawal
liability calculations made in a prior plan year may not
be retroactively revised . . . But, that is not the scenario
before this Court. At issue here is whether an actuary
must choose her withdrawal liability assumptions by the
Measurement Date.” App. 66a–67a n.20. Indeed, the case
the district court cited confirms that the Second Circuit’s
invented concept of retroactivity is both unnecessary
and contrary to longstanding precedent and practice. In
Roofers Local No. 30 Combined Pension Fund v. D.A.
Nolt, Inc., “[i]n the course of his preparation of the Plan’s
2002 actuarial report during 2003, the Plan actuary . . .
discovered a[n] . . . ‘error’” that existed in prior actuarial
reports. 719 F. Supp. 2d 530, 546 (E.D. Pa 2010), aff’d, 444
F. App’x 571 (3d Cir. 2011). The court held that making
changes to actuarial reports for prior years (i.e., 2000 and
2001) would be impermissibly retroactive – but did not hold
that correcting the error for the 2002 report during 2003
would be retroactive. Id. at 547–51. The Second Circuit
entirely ignored the district court’s thoughtful and correct
analysis of this issue.

13
The second set of policy concerns articulated by the
Second Circuit is:
Nothing would prevent trustees from attempting
to pressure actuaries to assess g reater
withdrawal liability on recently withdrawn
employers than would have been the case if the
prior assumptions and methods actually in place
on the Measurement Date were used. Actuaries
unwilling to yield to trustees’ preferred interest
rate assumptions can be replaced by others less
reticent.
App. 12a. But the statute, this Court’s precedent,
and even the Second Circuit’s own precedent already
establish that a plan’s trustees cannot interfere in
the selection of actuarial assumptions. Section 4213
requires that withdrawal liability calculations be based
on assumptions that “offer the actuary’s best estimate of
anticipated experience under the plan.” 29 U.S.C. 1393(a)
(1). The Second Circuit – along with every other Court
of Appeals to address the issue – has made clear that
“the ‘best estimate’ requirement is basically procedural
in nature and is principally designed to insure that the
chosen assumptions actually represent the actuary’s own
judgment rather than the dictates of plan administrators
or sponsors.” Wachtell, Lipton, Rosen & Katz v. Comm’r,
26 F.3d 291, 296 (2d Cir. 1994). See also Vinson & Elkins
v. Comm’r, 7 F.3d 1235, 1238 (5th Cir. 1993); Rhoades,
McKee & Boer v. United States, 43 F.3d 1071, 1073–75
(6th Cir. 1995). 3
3. Although these cases arose under the Internal Revenue
Code, courts have applied these holdings to the virtually identical

14
Moreover, as this Court has made clear, the “actuary
is not, like the trustees, vulnerable to suggestions of bias
or its appearance. Although plan sponsors employ them,
actuaries are trained professionals subject to regulatory
standards.” Concrete Pipe & Prod. of California, Inc. v.
Constr. Laborers Pension Tr. for S. California, 508 U.S.
602, 632 (1993). While the Second Circuit recited this
portion of Concrete Pipe, it brushed it aside because of
the substantive nature of the assumptions that the actuary
selected in this case. See App. at 12a–14a (expressing
concern about “[t]he opportunity for manipulation and bias
. . . where funds use different interest rate assumptions
for withdrawal liability and minimum funding purposes”).
This conflates two distinct issues: when an actuary may
select assumptions, and what assumptions an actuary
may select. And, as the Petition correctly observes, the
Second’s Circuit’s rule does nothing to prevent an actuary
from selecting assumptions for withdrawal liability that
differ from those used for minimum funding. See Pet.
26–27 (“Creating a hard and fast deadline by which
assumptions must be set does not fix the purported
problem. Instead, it merely moves the time period for
bias and manipulation to before the Measurement Date.”).
Moreover, the issue of whether it was permissible to
use different assumptions for withdrawal liability and
minimum funding was not before the Second Circuit.
“best estimate” requirement with respect to withdrawal liability
under ERISA. See, e.g., Chicago Truck Drivers, Helpers &
Warehouse Workers Union (Indep.) Pension Fund v. CPC
Logistics, Inc., 698 F.3d 346, 355 (7th Cir. 2012); United Mine
Workers of Am. 1974 Pension Plan v. Energy W. Mining Co., No.
1:18-CV-01905 (CJN), 2020 WL 2615536, at *11 (D.D.C. May 22,
2020).

15
But if that issue had been before the Second Circuit, it
is important to note that the statute already provides a
mechanism for challenging the substantive nature of the
selected assumptions. See 29 U.S.C. § 1401(a) (providing
that such a dispute is to be “resolved through arbitration”
and that a “determination of a plan’s unfunded vested
benefits for a plan year . . . is presumed correct unless
a party contesting the determination shows . . . that
. . . the actuarial assumptions and methods used in the
determination were . . . unreasonable”); Concrete Pipe,
508 U.S. at 635 (explaining that the “employer’s burden
. . . is . . . to show that the . . . assumptions . . . would not
have been acceptable to a reasonable actuary”). There
was therefore no need for the Second Circuit to invent
a rule in an attempt to prevent against unreasonable or
biased actuarial assumptions, because the statute already
prohibits both.
D.

The Second Circuit’s Reliance on Section 101
Was Misplaced

Finally, the Second Circuit seemed to believe that
its holding was necessary to preserve the efficacy of
ERISA Section 101(l), which requires that, “upon written
request,” plans provide employers with a notice of their
estimated withdrawal liability. See 29 U.S.C. § 1021(l). But
the Second Circuit’s holding does nothing to enhance the
efficacy of Section 101(l).
Metz withdrew from the Plan on May 16, 2014. App. 3a.
The Second Circuit seemed to be under the impression that
Metz was entitled to an estimate of what its withdrawal
liability would have been for its May 16, 2014 withdrawal,
and that unless the Plan was required to finalize its

16
actuarial assumptions prior to the close of the plan year
on December 31, 2013, the estimate Metz received would
have been out of date – and, therefore, “of no value.” See
App. 12a. But that is not how the notice provision works.
The estimate Metz was entitled to, in 2014, was of what its
withdrawal liability would have been had it withdrawn in
2013 – which would have been calculated “as of” December
31, 2012. See Pet. 11–12. In other words, Metz’s estimate
would have already been a year old, such that requiring
the Plan to finalize its assumptions for a 2014 withdrawal
during 2013 would have had no impact on the withdrawal
liability estimate Metz could have received under Section
101(l). The district court carefully analyzed all of this,
and correctly explained that requiring assumptions to be
selected “by the Measurement Date would not improve
employer’s ability to gauge their expectations regarding
withdrawal liability assessment; the estimates provided
to them will always be lagging as they are statutorily
required to be based on a prior year.” See App. at 65a–66a.
But the Second Circuit simply ignored this point, without
explanation.
II. This Court Should Review This Issue Now, Rather
Than Wait For a Circuit Split to Develop
A.

The Importance of Withdrawal Liability and
Multiemployer Pension Plans

“There are about 1,400 multiemployer defined benefit
pension plans, covering about 10 million participants.”
Pension Benefit Guaranty Corporation, Introduction to
Multiemployer Plans, available at https://www.pbgc.gov/
prac/multiemployer/introduction-to-multiemployer-plans
(Apr. 22, 2020). As the Petition notes, more than 90 percent

17
of the plans are underfunded, and some estimates put their
collective shortfall in the neighborhood of half a trillion
dollars. See Pet. 8. Employers who leave underfunded
plans are generally required to pay withdrawal liability.
See Bay Area Laundry & Dry Cleaning Pension Tr. Fund
v. Ferbar Corp. of California, 522 U.S. 192, 195 (1997). The
accurate calculation of withdrawal liability in accordance
with sound principles of actuarial practice is extremely
important. In addition to these calculations’ direct effect
on withdrawing employers, they also determine, in
significant part: (i) whether plans will have enough money
to pay benefits; (ii) whether employers will be incentivized
to withdraw from plans now and escape future liability;
and (iii) how much money other employers who remain in
the plan will be required to pay in ongoing contributions
or for their own future withdrawals.
In addition to the approximately 10 million participants
who rely on the collection of accurate amounts of
withdrawal liability to ensure that they will receive the
hard-earned retirement benefits they are entitled to,
there are also approximately 200,000 businesses 4 who
rely on the collection of withdrawal liability. See Republic
Indus., Inc. v. Cent. Pennsylvania Teamsters Pension
Fund, 693 F.2d 290, 292 n.1 (3d Cir. 1982) (explaining that
one of the purposes of withdrawal liability is “to ensure
. . . that a withdrawing employer will continue to fund
its proportional share of the plan obligations incurred
4. See Multiemployer Plans: Their Current Circumstances
in Historical Context, page 15, available at https://www.dol.
gov/sites/dolgov/files/EBSA/researchers/analysis/retirement/
multiemployer-plans-their-current-circumstances-in-historicalcontext.pdf (Sep. 29 2017) (providing estimate of number of
participating employers in multiemployer plans).

18
during its association with the plan, rather than shift
those obligations to the remaining contributing employers
or to the Pension Benefit Guaranty Corporation, the
federal insurer of multiemployer plans”). While some of
these businesses are large publicly traded companies, the
vast majority are small and medium-sized businesses.
If withdrawing employers do not pay an amount that
accurately reflects a plan “actuary’s best estimate of
anticipated experience under the plan,” 29 U.S.C. 1393(a)(1),
employers that remain in the plan will frequently be
required to pay more than their fair share of the benefits.
This already has forced some small and medium-sized
businesses into bankruptcy because they cannot afford to
pay for both their own employees’ pensions and those of
other employers who already withdrew and paid less than
their fair share – and thousands more could potentially
face the same fate.
B. Funding Questions for a Significant Portion
of the Nation’s Retirement Plans Are Worthy
of This Court’s Immediate Attention
The Second Circuit’s decision upsets decades of
actuarial practice and understanding of ERISA and
changes the rules for determining how to pay for
retirement benefits for a significant portion of the Nation’s
retirement plans. Four years ago, this Court was also
presented with a question regarding how to pay for
retirement benefits for a significant portion of the Nation’s
retirement plans, with appellate decisions similarly
disregarding decades of practice and understanding
of ERISA. This Court granted certiorari “[i]n light of
the importance of the issue” and unanimously reversed.
See Advocate Health Care Network v. Stapleton, 137 S.

19
Ct. 1652, 1657 (2017) (construing the scope of ERISA’s
“church plan” exemption). There was no circuit split. To
the contrary, all three Courts of Appeals to address the
issue were in agreement – with each of the three panels
issuing unanimous opinions, each of which affirmed the
respective district court decisions.
C.

The Question Cannot Wait

The assessment of withdrawal liability at issue in this
case was made on June 16, 2014, and a petition for a writ
of certiorari was not filed until May 29, 2020 – almost
six years later. It is a long and winding path for most
withdrawal liability disputes to get to the Supreme Court,
as ERISA provides for an internal review process at the
plan level, followed by mandatory arbitration, 29 U.S.C.
§§ 1399(b)(2), 1401(a), before the case can proceed to a
federal district court, and then a court of appeals.
Given the unprecedented nature of the Second
Circuit’s holding, which adopted a position that had been
conceded by counsel for Metz, most of the cases raising
this issue are still in the internal review and mandatory
arbitration phases. Accordingly, by the time another
case presenting this issue reaches this Court, more
multiemployer plans will have become insolvent and the
federal insurance program for multiemployer plans will
likely have run out of money. See Pension Benefit Guaranty
Program, PBGC Projections: Multiemployer Program
Insolvent in FY 2025, available at https://www.pbgc.gov/
news/press/releases/pr18-02 (May 31, 2018) (“[T]here
remains a significant chance the program will run out of
money during FY 2024. The likelihood the program will
remain solvent after FY 2026 is now less than 1 percent.”).

20
These projections were made before the “current economic
and health-related crises gripping our Nation,” which
put multiemployer plans “at risk of sliding even more
quickly towards insolvency.” See Amicus Brief of Horizon
Actuarial Services, LLC, at 3.
At arguably the most critical time in the history of
multiemployer pension plans and for the collection of
withdrawal liability, and with rapidly evolving economic
conditions, the decision below will force actuaries to
make critical calculations based on stale information. To
illustrate just how stale this information could be, consider
the present circumstances of 2020 – which has been and
will likely continue to be a tumultuous year in financial
markets and the broader economy. Under the Second
Circuit’s rule, the assumptions in place for withdrawals
that occur in 2020 must have been selected prior to the
end of 2019. But the most recent full-year data available
during 2019 would be as of the end of 2018. That means
that, as of the end of 2020, a plan’s assumptions could still
be based on the state of the world as of the end of 2018 –
and it would not be until 2022 that a plan’s actuary could
fully take into account what occurred during 2020.
The impact of the Second Circuit’s decision, however,
is entirely one-sided. While actuaries must continue to
base calculations at the end of 2020 on information from
2018, employers face no such restrictions in deciding
whether or when to withdraw. They can take into account
new information in deciding to opportunistically time
their withdrawals if doing so is likely to result in lower
withdrawal liability. Meanwhile, employers who are not
trying to game the system and who withdraw in the
ordinary course of business could in some instances
face higher w ithdrawal liability because of stale

21
information. And employers who would otherwise remain
in multiemployer plans may wonder whether they should
continue to be part of a system that allows for increasing
amounts of gamesmanship, at their expense, by other
employers.
Moreover, as the Petition notes, actuaries will face
the “Hobson’s choice” of “(i) following the Second Circuit’s
decision and violating their statutory and professional
obligations, or (ii) adhering to the statute and [Actuarial
Standard of Practice] 27 while disregarding the Second
Circuit’s decision.” Pet. 25. This Hobson’s choice is also
a gold mine for withdrawing employers, with plans left
in a damned if you do, damned if you don’t situation. If
an actuary follows the decision below, a withdrawing
employer could argue that it was unlawful to do so because,
as the district court concluded here, that would violate
the “best estimate” standard. See App. 51a (“[T]o satisfy
Section 4213, actuaries must take into account the full
experience of the plan . . . and ultimately provide their best
estimate of unfunded vested benefits in light of the plan’s
experience and the actuary’s reasonable expectations.
An actuary can only do so by incorporating data from
the entirety of the most recent preceding plan year.”).
And, under existing precedent, the fact that the plan or
the actuary was trying, in good faith, to comply with a
court decision may not offer any protection. See Chicago
Truck Drivers, Helpers & Warehouse Workers Union
(Indep.) Pension Fund, 698 F.3d at 356–57 (holding that
an actuarial firm violated the statute by not applying what
it believed to be its “best estimate” based on “anxiety”
and “confus[ion] by the Supreme Court’s decision in
Concrete Pipe”). Of course, if an actuary does not follow
the decision below, a withdrawing employer could argue

22
that too was unlawful. This additional uncertainty, the
ensuing litigation costs, and the settlement leverage given
to employers will irreparably exacerbate the challenges
facing multiemployer plans over the coming years.

23
CONCLUSION
For the foregoing reasons, the Petition for a Writ
of Certiorari should be granted and the decision below
should be reversed.
Respectfully submitted,
Edward J. Meehan
Mark C. Nielsen
Samuel I. Levin
Groom Law Group, Chartered
1701 Pennsylvania Avenue, N.W.
Washington, DC 20006
(202) 857-0620
emeehan@groom.com

Vincent M. DeBella
Counsel of Record
Paravati, K arl, Green &
DeBella, LLP
Landmarc Building
520 Seneca Street, Suite 105
Utica, New York 13502
(315) 735-6481
vdebella@pkgdlaw.com

Counsel for Amicus Curiae

